(
\

APPENDICES AS
FOLLOWS:
i
i

!
i
1

'

I
i

!

t

!

I

(AppxA) 1
I

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH COURT
No 18-12788
District Court Docket No.
1:17-cv-OO 115-JRH-BKE
CHRISTOPHER LAWRENCE
Plaintiff-Petitioners,
PETRICE RISKS, et al.,
Plaintiffs
versus
UNIVERSITY HOSPITAL,
UNIVERSITY HOSPITAL BOARD OF
COMMISSIONERS,
CEO JIM DAVIS,
DR. FARR,
CNO REYNEE GALLUP, ET AL.
Defendants- Appellees,
Appeal from the United States District Court
For the Southern District of Georgia
JUDGMENT
It is hereby ordered, adjuded, and decreed that the opinion
issued on this date in this appeal is entered as the judgment
of this Court.
Entered: July 10, 2019
For the Court: DAVID J.SMITH, Clerk of Court
By: Djuanna Clar

!

(Appx B) 2
DO NOT PUBLISH
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH COURT
No 18-12788
District Court Docket No.
1:17-cv-00115-JRH-BKE
CHRISTOPHER LAWRENCE
Plaintiff-Petitioners,
PETRICE RISKS, et al.,
Plaintiffs
versus
UNIVERSITY HOSPITAL,
UNIVERSITY HOSPITAL BOARD OF
COMMISSIONERS,
CEO JIM DAVIS,
DR. FARR,
CNO REYNEE GALLUP, ET AL.,
Defendants- Appellees,
Appeal from the United States District Court
For the Southern District of Georgia
(July 10, 2019)
Before: TJOFLAT, MARCUS and ROSENBAUM, Circuit
Judges.
PER CURIAM:
Plaintiffs appeal the District Court’s order dismissing their
pro se complaint for lack of subject matter jurisdiction. The
complaint alleged state law claims of medical

!

(Appx B) 3
negligence, gross negligence, and wrongful death of Daphne
Lawrence Ricks. On appeal, Plaintiffs argue that the District
Court erred in finding that it lacked subject matter
jurisdiction because the parties were only minimally diverse.
We reviewed de novo dismissals for lack of subject-matter
jurisdiction, Barbour v. Haley, 471 F. 3d 1222, 1225 (11th
Cir. 2006) and reviewed for clear error a District Court's
factual findings concerning jurisdiction, Bryant v. Rich, 530
F. 3d 1368, 1377 (11th Cir. 2008).
District Courts have subject matter jurisdiction over civil
actions between citizens of different states, or between
citizens of a state of a state and citizen of a foreign country,
where the mount in controversy exceeds $75,000, 28 U.S.C.
§ 1332(a). Diversity jurisdiction requires complete diversity
of citizenship between all plaintiffs and defendants.
Strawbridge v. Curtiss, U.S. (3 Cranch) 267, 267 (1808). The
party invoking jurisdiction must allege the citizenship of the
parties as of the time suit is filed in federal Court. See
Travaglio v. AM. Express Co., 735 F.3d 1266 (11th Cir. 2013)
A natural person is a citizen of the state in which they are
domiciled, id. at 1269, and a corporation is citizen of its state
of incorporation and the state in which it has its principal
place of business, 28 U.S.C. § 1332(c)(1).
Plaintiffs appear to concede that the parties in this case are
not completely diverse.1 They argue, however, that complete
diversity isn’t required for several reasons. First Plaintiffs
argue that their action should be allowed to proceed under
the federal interpleader statute, 28 U.S.C. § 1335. If this
were correct, minimal diversity among the parties would be
sufficient to confer jurisdiction. See State Farm & Cas . Co.
v. Tashire, 386 U.S. 523, 530 -31, 87 S. Ct. 1199, 1203-04
(1967). But the interpleader statute is inapplicable: there are

(Appx B) 4
not two or more adverse claimants in this case who “are
claiming or may claim to be entitled to money or property”
or other benefits of a financial instrument. See 28 U.S.C. §
1335(a)(1). So this argument is unavailing.
Plaintiffs’ second argument for minimal diversity appears to
be premised on the Class Action Fairness Act (“CAFA”),
which requires only minimal diversity for class actions that
meet specified criteria. 28 U.S.C. § 1332(d)(2)2 We agree
with the District Court that CAFA is inapplicable as this
case involves fewer than 100 plaintiffs and the aggregated
claims do not exceed $5,000,000. So this argument is also
unavailing.
Because there is no basis for federal subject matter
jurisdiction in this case, we affirm the District Court’s order
dismissing plaintiff’s claims.
AFFIRMED

On this and many other issues, plaintiffs’ position is far
from clear. What is clear, however, is that the parties are not
completely diverse- several of the plaintiffs, and all
defendants, are domiciled in Georgia.
2 Again, this argument doesn’t exactly leap off the page of
Plaintiffs’ brief. But the District Court addressed this
possible jurisdictional ground, and plaintiffs refer to that
portion of the District Court’s order in their briefing.
l

(Appx C) 5
IN THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA
AUGUSTA DIVISION
CHRISTOPHER LAWRENCE
Plaintiff,
PETRICE RISKS, et al.,
Plaintiffs
versus

)
(
)

(CASE NO.
1 L17-CV-115 JRH
(JUDGMENT IN
) CIVIL CASE

(
UNIVERSITY HOSPITAL,
UNIVERSITY HOSPITAL BOARD OF )
(
COMMISSIONERS,
)
CEO JIM DAVIS,
(
DR. FARR,
)
CNO REYNEE GALLUP, ET AL.,

Decision by Court. This action having come before the
Court.
The issues have been considered and a decision has been
rendered.
IT IS ORDERED AND ADJUDGED
Pursuant to the Order dated June 4, 2018, that Defendants'
Motion to dismiss is granted. Plaintiffs' claims are hereby
dismissed for lack of subject matter jurisdiction. This case
stands closed.
06/04/2018
Date

/s/: Scott L. Poff
Clerk
/s/: Jamie Hodge
(By) Deputy Clerk

I
I

(Appx D) 6
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF GEORGIA
AUGUSTA DIVISION

CHRISTOPHER LAWRENCE
Plaintiff,
PETRICE RISKS, et al.,
Plaintiffs
versus

)
(
)

(CASE NO.
J l:17-cv-115 JRH
(ORDER
)

(
UNIVERSITY HOSPITAL,
UNIVERSITY HOSPITAL BOARD OF )
(
COMMISSIONERS,
)
CEO JIM DAVIS,
(
DR. FARR,
)
CNO REYNEE GALLUP, ET AL.,
Defendants,
(
)

t

|

Plaintiffs are kin to Daphne Lawrence Ricks (“Decedent”).
On September 22, 2017, Plaintiffs, proceeding pro se,
initiated the present action against Defendants alleging that
medical malpractice and/or other negligent acts or omissions
of Defendants resulted in Decedent’s death in late September
2015. (See Doc. 1.) On December 4, 2017, Plaintiffs’
amended complaint pursuant to Federal Rule of Civil
Procedure 12(b)(1), (4), & (5). (Doc.)
“Federal courts are courts of limited jurisdiction and are
required to inquire into their [subject matter] jurisdiction at
the earliest possible point in the proceeding.” Kirkland v.

i
i

!

i
I

(Appx D) 7
Midland Mortgage Co., 243 F.3d 1277, 1279-80 (11th Cir.
2001) (citations omitted). Indeed,
A court lacking jurisdiction cannot render judgment but must
dismiss the cause at any stage of the proceedings in which it
becomes apparent that jurisdiction is lacking. The party
invoking the jurisdiction of the court has the duty to establish
that federal jurisdiction does exist but, since the courts of the
United States are courts of limited jurisdiction, there is a
presumption against its existence. Thus, the party invoking
the federal court’s jurisdiction bears the burden of proof.
If the parties do not raise the question of lack of jurisdiction,
it is the duty of the federal court to determine the matter sua
sponte. Therefore, lack of jurisdiction cannot be waived and
jurisdiction cannot be conferred upon a federal court by
consent, inaction or stipulation
Fitzgerald v. Seaboard Svs. R.R., Inc., 760 F.2d 1249, 1251
(11th Cir. 1985) (per curiam) (internal quotations, citations,
and alterations omitted).
In their amended complaint, Plaintiffs assert that the Court
has subject matter jurisdiction over this action pursuant to
the federal diversity jurisdiction statute, 28 U.S.C. § 1332.
(Doc. 8, Tfl.) “Diversity jurisdiction, as a general rule,
requires complete diversity - every plaintiff must be diverse
from every defendant.”1 Palmer v. Hosp. Auth. of Randolph
Ctv.. 22 F.3d 1559, 1564 (11th Cir. 1994) (citations omitted).
1 Notably, Plaintiffs have not alleged that the Class Action Fairness
Act (“CAFA”), 28 U.S.C, § 1332(d), is applicable to the present
action. CAFA may provide jurisdiction where “any member of the
plaintiff class is diverse from any defendant” (i.e., where there
exists, inter alia, “minimal diversity”). Lowery v. Alabama Power

(Appx D) 8
Co., 483 F. 3d 1184, 1193-94 (11th Cir. 2007) (citing 28 U.S.C. §
1332(d)(2)). Nevertheless, because there are not 100 or more
plaintiffs and Plaintiffs have not alleged that their aggregated
claims exceed $5,000,000, the Court concludes that CAFA is
inapplicable to the instant action. See id. at 1194 (“CAFA provides
federal courts with jurisdiction over class actions provided that:
the number of plaintiffs in all proposed plaintiff classes exceeds
one hundred, § 1332 (d)(5)(b).... and the aggregate of the claims
of individual class members exceeds $5,000,000, exclusive of
interests and cost, § 1332 (d) (2), (6).” (citations omitted)).
“Citizenship, not residence, is key fact that must be alleged
in the complaint to establish diversity for a natural person.”
Taylor v. Appleton, 30 F.3d 1365, 1367 (11th Cir. 1994)
(citing 28 U.S.C. § 1332); see also McCormick v. Aderholt,
293 F.3d 1254, 1257-58 (11th Cir, 2002) (Citizenship is
equivalent to 'domicile' for purposes of diversity
jurisdiction. A person’s domicile is the place of his true,
fixed, and permeant home and principal establishment, and
to which he has the intention of returning whenever he is
absent therefrom.
Furthermore, a change of domicile
requires a concurrent showing of (1) physical presence at the
new location with (2) an intention to remain there
indefinitely.” (internal quotations, citations, alterations, and
footnotes omitted)).
“For a corporate defendant the
complaint must allege either the corporation’s state of
incorporation or principal place of business.” Taylor , 30
F.3d at 1367 (citing 28 U.S.C. § 1332). “[Diversity
jurisdiction is measured at the time the action is filed.” PTAFLA, Inc. v. ZTE USA, Inc., 844 F.3d 1299 (11th Cir. 2016)
(citations omitted)).

i

In their amended complaint, plaintiffs failed to plead: (i)
plaintiffs’ citizenship; (ii) the natural Defendants’
citizenships; and (iii) the corporate Defendants’ states of

i
l

(Appx D) 9
incorporation or principal place of business. (See Doc. 8)
Rather, Plaintiffs only alleged in their amended complaint
the residence of a handful of the Plaintiffs and the address
where the Defendants allegedly “operated from.” (Id. 5;
but see id. ^ 2 (“Subject matter jurisdiction to federal court is
impacted by Plaintiffs5 domiciles while Chaslie’s and Petrice
are primarily in Augusta Georgia and Decedent’s siblings are
located in other states such as; Dr. Gwendolyn Harrison
currently resides in California, Gregory Lawrence in
Arizona, Charlie Junior in North Carolina creating a
jurisdictional diversity at minimal standing.”).) Accordingly,
because Plaintiffs have the burden to “affirmatively allege
facts demonstrating the existence of jurisdiction,” yet failed
to allege the relevant facts necessary for the Court to
determine whether there exists complete diversity, the Court
lacks subject matter jurisdiction on the face of the amended
complaint. See Taylor, 30 F.3d at 1367 (citing FED. R. Civ.
P. 8 (a)).
Nevertheless, even if the Court were to look beyond the
face of the amended complaint, complete diversity still
would not exist because at least one of or both the Plaintiffs
and the Defendants are Georgia citizens. Indeed, Defendants
Jim Davis, Reyne Gallup, William Far, and Edward Burr all
assert they are Georgia citizens and Defendant University
Hospital assert that it is incorporated - and has its principal
place of business - in Georgia. (See Doc. 9, at 3.) Further,
Decedent’s daughter, Plaintiff Chaslie Lawrence Ricks, does
not deny that she was a Georgia citizen at the time she
initiated this lawsuit.2
(See Doc 8, ^fl|2, 5.) Accordingly because each and every
plaintiff is not diverse from each and every defendant in this
action, complete diversity is lacking. See Palmer, 22 F.3d at
1564.

(Appx D) 10
Seeking to avoid dismissal, Plaintiffs argue that this action
may proceed under the federal interpleader statute, 28 U.S.C.
§ 1335, because at least one of the Plaintiffs is diverse from
at least one of the Defendants. (See Doc. 14, at 5 (citing
State Farm Fire & Cas. Co. v. Tashire. 386 U.S. 523, 530
(1967) (federal interpleader statute “has been uniformly
construed to require only minimal diversity, that is, diversity
of citizenship between two or more claimants, without
regard to the circumstance that other rival claimants may be
co-citizens.” (footnote omitted))).)
Yet Plaintiffs have failed to demonstrate the applicability of
the federal interpleader statute to the instant litigation, which
requires that there be “two or more adverse claimants.” See
28 U.S.C. § 1335(a)(1) (emphasis added); Fulton v. Kaiser
Steel Corn.. 397 F. 2d 580, 582 (5th Cir. 1968) (“There must
be two or more adverse claimants for statutory interpleader
purposes.”).
2
Similarly, Plaintiffs Christopher Lawrence, Cynthia
Lawrence Tolbert, Reginald Lawrence, Cheryl Lawrence,
Charlette Lawrence, Janie R.W. Lawrence, and Charlie Sr.
Lawrence do not deny that they were Georgia citizens at the
time they initiated this action. (See Doc. 8, f 5.) Notably,
Defendants argued that the aforementioned Plaintiffs are not
real parties in interest under Georgia’s wrongful death statute
because - unlike Plaintiffs Chaslie Lewis and Petrice Ricks they are not Decedent’s surviving spouse or children. See
O.C.G.A. § 51-4-2(a) (“The surviving spouse or, if there is
no surviving spouse, a child or children, either minor or sui
juris, may recover for the homicide of the spouse or parent
the full value of life of the decedent , as shown by the
evidence.”); Mann v. Taser Int’L Inc.. 588 F.3d 1291, 1311
(11th Cir. 2009) (“Under [O.C.G.A.] §
51-4-2(a) ,
“Wrongful death claims may be brought by only two
categories of Plaintiffs- the decedent’s surviving spouse
!

(Appx D) 11
and, if there is no surviving spouse, the decedent’s
children.'” (quoting Tolbert v. Maner, 518 S.E.2d 423, 425
(Ga. 1999))); see also Navarro Sav. Ass’n v. Lee, 446 U.S.
458, 461 (1980) (“[A] federal court must disregard nominal
or formal parties and rest jurisdiction only upon the
citizenship of real parties to the controversy.”) . Because
complete diversity is lacking- and therefore the Court is
without subject matter jurisdiction - even if the Court were
to disregard these Plaintiffs’ citizenship, however, the Court
does not reach the issue of whether these Plaintiffs would
otherwise have standing to pursue their present claims. See
Bochese v. Town of Ponce Inlet. 405 F. 3d 964, 974-75 (11th
Cir. 2005) (“Simply put, once a federal court determines that
it is without subject matter jurisdiction, the Court is
powerless to continue.” (citations omitted)).
Indeed, even if the Court were to again ignore Plaintiffs’
failure to plead the parties’ citizenship, and thereby their
failure to carry their burden to demonstrate even minimal
diversity, Plaintiffs’ claims against Defendants - all of which
seek to recover from Defendants without prejudice to or
competition with the other Plaintiffs -simply cannot be
considered adverse to one another as presently pleaded.
Further, this action itself — which seeks to hold Defendants
directly and/or vicariously liable for their negligent actions
or omissions - can hardly be considered to be in the nature
of interpleader. See State of Texas v. State of Florida, 306
U.S. 398,412 (1939)
(“In the case of bills of peace, bills of interpleader and bills
in nature of interpleader, the gist of the relief sought is the
avoidance of the burden of unnecessary litigation or risk of
loss by the establishment of multiple liability when only a
single obligation is owing.”); McBride v. McMillian, 679 F.
App’x 869, 871 (11th Cir. 2017) (“Interpleader allows a
party who holds money claimed by multiple adverse

(Appx D) 12
claimants to avoid multiple liability by asking the court to
determine the asset’s rightful owner. The party holding the
funds typically claims no interest in the asset and does not
know the asset’s rightful owner.” (internal quotations and
alterations omitted) (citing In re Mandalay Shores Co-op.
Hous. Assn Inc.. 497 F.3d 380, 383 (11th Cir. 1994)));
United States v. High Tech. Products, Inc., 497 F. 3d 637,
641 (6th Cir. 2007) (“Interpleader is an equitable proceeding
that affords a party who fears being exposed to the vexation
of defending multiple claims to a limited fund or property
that is under his control a procedure to settle the controversy
and satisfy his obligation in a single proceeding.” (internal
quotations and citations omitted)) Moreover, the Court can
locate no alternatives jurisdictional basis upon which
Plaintiffs may rely in bringing their instant lawsuit.
Accordingly, the Court must dismiss this action for lack of
subject matter jurisdiction.3 See Fitzgerald, 760 F.2d at 1251.
Therefore, upon the forgoing and due consideration, IT IS
HEREBY ORDERED that the Defendants' motion to
dismiss (doc. 9) is GRANTED and Plaintiffs' claims are
hereby DISMISSED for lack of subject matter jurisdiction.
The Clerk is directed to TERMINATE all motions and
deadlines and Close this case.
ORDER ENTERED at Augusta, Georgia, this 4th day of
June, 2018.
3 Because the Court lacks subject matter jurisdiction over
Plaintiffs’ claims, the Court does not reach Defendants’
arguments that dismissal is also appropriate under Rule
12(b)(4) &(5). See Bochese, 405 F. 3d at 974-75.
/s/: Randal Hall
J. RANDA1 HALL; CHIEF JUDGE
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA

(Appx E) 13
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF GEORGIA
AUGUSTA DIVISION

CHRISTOPHER LAWRENCE
Plaintiff,
PETRICE RISKS, et al„
Plaintiffs
versus

)
(
)

(CASE NO.
) l:17-cv-115 JRH
(ORDER
) GRANTING
(DEFENDANT’S
UNIVERSITY HOSPITAL,
UNIVERSITY HOSPITAL BOARD OF ) MOTION TO
(STAY
COMMISSIONERS
CEO JIM DAVIS,
)
(
DR. FARR,
CNO REYNEE GALLUP, ET AL.,
)
Defendants,
(
)

This matter is before the Court on Defendants’
Motion for Extension of Time to Conduct Rule 26(f)
Conference pending the Court’s ruling on the Motion
to Dismiss (doc. No. 9). For the reasons set forth
below, the Court GRANTS the Motion for Extension.
(Doc. no. 12.)
The “[C]ourt has broad inherent power to stay
discovery until preliminary issues can be settled
which may be dispositive of some important aspect of
the case.” Feldman v. Flood. 176 F.R.D. 651, 652
(M.D. Fla. 1997). Before deciding to stay discovery,
the Court should:

(Appx E) 14
balance the harm produced by a delay in discovery
against the possibility that the motion will be
granted and entirely eliminate the need for such
discovery. This involves weighing the likely costs
and burdens of proceeding with discovery. It may be
helpful to take a preliminary peek at the merits of
the allegedly dispositive motion to see if on its face
there appears to be an immediate and clear
possibility that it will be granted
Id. (internal citation and quotation omitted).
Based on a preliminary peek at the defense motion,
the Court finds an immediate and clear possibility of
a ruling “which may be dispositive of some important
aspect of the case.” Indeed, Defendants have moved
for complete dismissal, (see doc. no.9), and Plaintiffs
have not opposed the motion to stay. When
balancing the cost and burdens to the parties, the
Court concludes discovery should be stayed pending
resolution of the motion to dismiss. See Chudasama
v. Mazda Motor Corn.. 123 F.3d 1353, 1367 (11th Cir.
1997); Moore v. Potter. 141 F. App ’x 803, 807-08
(11th Cir. 2005).
Thus, the Court STAYS all discovery in this
action pending resolution of Defendants’ Motion to
Dismiss. Should any portion of the case against
these Defendants remain after resolution of the
motion, the parties shall confer and submit a Rule
26(f) Report, with proposed case deadlines, within
seven days of the presiding District Judge’s ruling.

i

I

(Appx E) 15
SO ORDERED this day of February, 2018, at
Augusta, Georgia
/s/: Brian K, Epps
BRIAN K. EPPS
UNITED STATES MAGISTRTAE JUDGE
SOUTHERN DISTRICT OF GEORGIA

!

I

I

!

(AppxF) 16

I

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF GEORGIA
AUGUSTA DIVISION

:

CHRISTOPHER LAWRENCE
Plaintiff,
PETRICE RISKS, et al„
Plaintiffs
versus

)
(
)

(CASE NO.
1 l:17-cv-115 JRH
(
)
(

UNIVERSITY HOSPITAL,
UNIVERSITY HOSPITAL BOARD OF )
(
COMMISSIONERS,
)
CEO JIM DAVIS,
(
DR. FARR,
)
CNO REYNEE GALLUP, ET AL„
Defendants,
(
AMENDED COMPLAINT OF NEGLIGENCE
AND DAMAGES
COMES NOW Plaintiffs, Chaslie Lawrence Lewis
and Petrice Ricks (Daughters of Decedent) Daphne
Lawrence Ricks requesting equity and remedy
against the Defendants, with foregoing cause of ac­
tion to this Court et.al., for their blatant lack of med­
ical responsibility, professionalism and failing to per­
form equitable services which thus contributed to
the death of Daphne L. Ricks. Pursuant to O.C.G.A.
§ 51-4-2 and O.C.G.A. § 51-4-5, Plaintiffs’ Chaslie
Lewis and Petrice Ricks enjoin the above listed par­
ties of interest in this cause of action who were ad­
versely affected by the untimely and unnecessary
loss of their

;

i

(Appx F) 17
family member. By way of the signed foregoing com­
plaint, above Plaintiffs and enjoined family members
hold University Hospital at 1350 Walton Way, Au­
gusta, Georgia 30901 liable for Daphne’s transition,
(death) hereafter, the Decedent under the forgoing
actions of Medical Professional Negligence, Gross
Negligence and Wrongful death.
1.
JURISDICTION
Plaintiffs show minimal jurisdiction and jurisdiction
pursuant to 28 U.S.C. § 1332 may be challenged due
to; provision of officials, family members, and treat­
ment within Augusta University Hospital which
may have propensity and bias that the officials pre­
siding over the case have used University Hospital
services creating conflict and prejudicial opinion.
Plaintiffs reserve the right to request transfer of this
case to a different venue to preserve equity, remedy
and objectivity of fairness. Plaintiffs need not actu­
ally prove the amount in controversy, but show the
amount in controversy exceeds $75,000 threshold
limit for the State Court to hear and preside over
subject-matter jurisdiction
2.
Subject matter Jurisdiction to the federal court is
impacted by Plaintiffs’ domiciles while Chaslie’s and
Petrice are primarily in Augusta Georgia and Dece­
dent’s siblings are located in other states such as;
Dr. Gwendolyn Harrison currently resides in Cali­
fornia, Gregory Lawrence in Arizona, Charlie Jun­
iors in North Carolina creating a jurisdictional di­
versity at minimal standing.

(Appx F) 18
3.

VENUE
Venue in the case may or may not be favorable by
way of the relationship of the political leaders of Au­
gusta to University Hospital and the entrenched
personal connections impacting the objectivity of the
Court to be fair and impartial against Pro se liti­
gants pursuant to 28 U.S.C. § 1391.
4.
Venue is impacted by the Federal, Circuit and Su­
preme Court judges using reactive markers from a
class of litigants, non-attorneys representing them­
selves and interested parties within the judicial are­
na even though they have not completed the Bar and
juris status. Therefore, an unbiased venue may be
better suited within the United States Court of Fed­
eral Claims from the federal lobbyists protecting De­
fendants as University from the claims documented
in this cause of action
5.
PARTIES
Plaintiffs Chaslie Lewis and Petrice Ricks currently
and temporally reside at 2740 Highnoint Road,
Snellville. Georgia. 30078 and reserved the right to
modify their residences at time of changes.
Enjoined Plaintiff Christopher Lawrence also resides
at 2740 Highnoint Road Snellville. Georgia 30078
Enjoined Plaintiff Cynthia Lawrence Tolbert resides
at 4972 South Atlanta. Road Southeast. Atlanta,
Georgia 30339
Enjoined Plaintiff Greg M. Lawrence. P.O. Box 156,
Chandler. AZ 85244
Enjoined Plaintiff Charlie Jr. Lawrence. North Caro­
lina

i
t

!

(Appx F) 19
Enioined Plaintiff Samuel M. Lawrence. Augusta,
Georgia
Enjoined Plaintiff Reginald Lawrence 2570 Dover
Street, Augusta. Georgia 30906
Enjoined Plaintiff Fredrick Lawrence Augusta,
Georgia
Enjoined Plaintiff Chervl A. Lawrence Hughes 3366
Wedgewood Drive. Augusta, Georgia 3090
Enjoined Plaintiff Carolyn Lawrence 201 East
Chapman Street Augusta, Georgia 30901
,
Enjoined Plaintiff Gwendolyn D. Lawrence Harrison
California
Enjoined Plaintiff Charlette Lawrence Jones P.0
Box 93042 Atlanta. Georgia 30377
Enjoined Plaintiff Janie R. W. Lawrence 201 East
Chapman Street Augusta, Georgia 30901
Enjoined Plaintiff Charlie Sr. Lawrence 201 East
Chapman Street Augusta, Georgia 30901
Defendants as named in the case Caption operated
from University Hospital at 1350 Walton Way, Au­
gusta, Georgia 30901 under which noted as place of
service upon the Registered Agent or as otherwise
directed by O.C.G.A. § 9-11-4 for service upon CEO,
Corporations, Registered Agents shall be effected by
service of process under a corporation
6.
STATEMENT OF FACT
Plaintiffs are entitled to standards established as
conditions precedent in showing Medical Profession­
al Negligence as follows:
7.

(Appx F) 20
FACT A: University Hospital had a circumstantial
duty to provide emergency medical care including;
all available treatments, tests, labs, proper medica­
tions from competent licensed trained professionals
under which evidence shown below contradicts the
Defendants RN’s, PA’s and MD’s.
8.

FACT B: The Defendants named breached their le­
gal, ethical and medical duties of providing all possi­
ble health care in a patient to RN, PA, and MD rela­
tionship under which the Decedent’s emergency con­
dition was diverted to University Hospital.
9.
FACT C: Defendants named or the subordinates un­
der the control of University Hospital executive di­
rectives breached their duties by ignoring critical
values of the life of Decedent even after receiving
turnover/reported from the incident scene, EMS
gave specific recording of vital signs which showed
high blood glucose levels and other critical abnor­
malities thus warranted emergency treatment for a
compromised system.
10.
FACT D: On 9/23/15 negligence shows no medical
treatment or diagnosis information was entered into
the turnover record log by initial Defendant RN,
Brandi Nicole Pleming from EMS critical values and
vital signs that required University Hospital’s de­
fendant RN to address properly or consult with a
physician on duty. Proper jurisdictional Court under
28 U.S.C. § 636(b)(1)(A) must determine; proper ad­
equate health care was not provided, misdiagnosis
and medications administered increases and facili

■

(Appx F) 21

i

J

I

tates kidney failure, and suppression of the central
nervous system. By not informing a compromised
emergency patient that she had a UTI infection for
several days allowing infection to continue into the
blood stream under which internal organs of Dece­
dent that filters waste and bi-product by way of oxy­
gen wasn’t properly functioning.
12.
Causation is formed by the following; Defendants
misdiagnosis, wrong course of treatment, four (4)
day delayed treatment of antibiotics for UTI, giving
Decedent a steroid with a host of drugs without mon­
itoring and charting. Decedent was prematurely dis­
charged, having a pain scale vital of 10 showing bla­
tant medical incompetency and recklessness among
other failures as listed below will conclusively show
Defendants caused Decedent’s death. This is ex­
pressly shown in the Pathology and Toxicology re­
port showing improper and delayed amount of medi­
cines to a compromised system.
13.
Defendants in direct contact with Decedent or
through authoritative managerial control are re­
sponsible for Decedent. Medical licensed staff should
have been properly aware that Decedent was in dire
need of specific diabetic medical treatment in addi­
tion to a UTI, but failed to do a duty which executed
the unnecessary suffering and untimely death of
Daphne L. Ricks who had a chance at life by way of
receiving reasonable Medical services.
14.
The actions and harm of Plaintiffs’ mother and sib­
lings by way of loss of life were preventable but for

I

(Appx F) 22
not the actions taken or inaction not taken that re­
sulted in the Decedent’s death. As a result, Plain­
tiffs, parents and siblings enjoined are entitled to
present valid claims of restitution and relief to a jury
and trial as specified herein under “Claims for Spe­
cial Damages, Claims for General Damages, Claims
for Future Damages, Claims for loss and deprive en­
joyment of a family member.
15.
COUNT - I. MEDICAL PROFESSIONAL NEG­
LIGENCE
Liability, punitive, and actual damages arising from
contributory negligence among Defendants’ actions
jointly, individually, supervisory and administrative­
ly where the parties listed above in the case caption
failed either directly or indirect through personnel,
policy, practice and procedure to provide proper care
to Decedent that lead to her untimely death on
September 28. 2015.
16.
Defendants were either directly responsible for obvi­
ous oversight related to staff, supervisory and ad­
ministrative failure where competent PR’s, PA’s,
MD’s failed to control the medial process where criti­
cal value notations were not properly followed or de­
ficient. Further actions by staff created gross negligence related to care performance, contributing to
and creating unnecessary loss of life. Thus as a resuit of deficiencies, a death occurred. Since the De­
cedent’s untimely death, daughters, parents and sib­
lings have been inflicted with severe emotional loss
and distress by way of treatment and services with­
held by Defendants.

(Appx F) 23
17.
Had University Hospital performed proper diagnosis
testing, analysis and treatment related to a medical
condition noted as Urinary Tract Infection, (UTI),
common among females, Decedent would have sur­
vived. Due to the lack of proper medical care an
acute infection transformed into Sepsis. The forgo­
ing findings are included in the Re-Amended Pathol­
ogy Necropsy Report # FA15-777 on December 7,
2015 Exhibit 1 attached hereto.
18.
University Hospital failed in this case to provide
equipped and/or medically trained ED MD, PA, and
RN staff required to provide proper care for patients
who enter into the hospital facility that have diabe­
tes related conditions which should be a functional
role of Administration and Executive staffing. Daph­
ne L. Ricks did in fact have a diabetes related condi­
tion that was not recorded as treated for high blood
glucose which is a critical value to the case.
19.
The need to treat Decedent was obvious from a 911
call, EMS dispatched, and upon arrival to University
Hospital, vital information was passed onto Defend­
ant Pleming. There are no notations in the logs re­
laying Decedent’s critical values from EMS such as
blood sugar levels which were at that time 404, vi­
tals listed below at ^24, but no immediate need for
treatment or care. Fact remains clear that, Pleming
failed to address medical care for a critical value is
clear cursory in the manner given creates a deliber­
ate indifference due to the following; financial status

(Appx F) 24
of Decedent, including lack of insurance, also Daph­
ne L. Ricks was recognized as a minority being Afric
American. The vital factors which unveil the hidden
agenda of University Hospital relating to deferring
cost over properly providing proper medical care by
further necessary testing of a patient such as Daph­
ne L. Ricks have been given.
20.

At all times within the scope of expected reasonable
emergency care, gross deficiencies and negligence by
University’s Hospital ED staff cost Decedent her life.
21.
On September 23, 2015, Daphne Lawrence Ricks
was experiencing lower back pain creating much dif­
ficulty in mobility. Emergency services were sum­
moned to 3366 Wedgewood Drive, Augusta, Georgia
30909
22.

Dispatch log indicates Gold Cross EMS Response #
15-09-134-0224, on September 23, 2015, at 2:39 PM.
Notes from the dispatch log indicated arrival and in­
itial contact and states Daphne Lawrence Ricks was
experiencing pain and was at the home of her sister
Cheryl Hughes.
23.

EMS record reflects Decedent stating employment
as a Home Health Aide and lifting of a patient may
have contributed to her back pain.
24.
Importantly captured by EMS and turned over to
University Hospital Emergency Room Nurse Brandi
Nicole Pleming, (ED PRN) the following as Exhibit
2:

i

t

(Appx F) 25
Daphne’s Chief Complaint as noted in the dis­
patch narratives as “C/C” as pain
None Insulin Dependent Diabetes Mellitus,
B.
(NIDDM)
None Known Drug Allergies, (NKDA)
C.
Warm and Dry, (W/D)
188/102 Blood Pressure
D.
110R, Radial Pulse
E.
20NL
F.
Room Air Saturated,(RA SAT 100PSG)
G.
404, Blood Sugar
H.
Daphne Okayed diversion to University Hospi­
I.
tal according EMS request due to other facility
was at capacity.
25.
According to Exhibit 2 logs, Daphne’s admission
into University Hospital was clocked in at 14:24, on
9/23/15. Defendant Pleming failed to act on the
above medical data in at (id above *{[24) reasonably
and professionally as the first line assessment
26.
Defendant Pleming-failed to show any RN staff doc­
umentation of her actions under blood sugar, Pro­
tein, Glucose, for a diabetic patient and blood pres­
sure values or indicators as reported by ESM. Dece­
dent’s baseline and critical values should have been
evaluated by Pleming for potential of compromising
internal organs specifically kidneys, pancreas, liver,
and other internal organs.
27.
Defendant Pleming failed to show any initial as­
sessments where she should have acted from the ab­
normality of critical values given by EMS. She also

A.

:

(Appx F) 26
failed to investigate further or prompt the PA of adverse possibilities from her initial contact with Decedent, training, or hospital procedure for high blood
sugar levels.
28.

Pleming and Administrative Executives Jim Davis,
Dr. Farr, Reynee Gallup, Board of Commissioners,
and Edward Burr failed to have proper policies of
control and ministerial procedures in place which
would address any patient such as Decedent having
any immediate or underlying conditions related to
diabetes, proper treatment of such and not to be re­
leased from University Hospital with indicating fac­
tors of high levels of blood glucose, being diabetic,
and positive testing of a UTI with a vital sign still
showing 10 as a pain scale.
29.
Defendant Pleming failed to show appropriate fol­
low-up to Daphne’s vitals and pain scale from the
time period of 14:25 through 17:39. No additional vi­
tals were recorded from the arrival time.
30.

Defendant Pleming failure to act after receiving
EMS’ profile of Decedent’s vitals is attributable to
deprivation of proper action and service of Daphne L.
Ricks. The same is also applicable for inadequate
and proper health care not provided through the PA
Defendants, MD Defendants, and Executive staff.
31.
Liability under causation by Defendant Pleming oc­
curred when she failed to provide proper medical
care for several abnormalities noted by EMS and
from Decedent’s medical profile of being diabetic, age

i

(Appx F) 27
specific, and abnormalities noted is the proximate
cause to decedent’s death for failing to act in a man­
ner that by a procedure on critical value actions
would have been reasonable.
32.
Liability under causation further is present in the
manner Defendants deprived Decedent for further
observations, perform intravenous, (I.V.) and dialy­
sis to filter impurities, withheld proper medicines for
4days, but thereafter, did not attempt to give proper
medication to lower blood sugar levels, did not per­
form proper assessments to include the functionality
of Decedent’s tests of the following; kidneys, liver
function, and urinary urethra functions. Pleming
was aware that critical values from Decedent’s blood
sugar levels required an immediate response and
possible administering of regular insulin if directed
or by policy. Yet, nothing in the record indicate or
refers to record, policy and procedure was activated
under the emergency condition related to improper
blood sugar level.
33.
Nothing in the medical records indicates what
standards, policies, practices and procedures were
used for University Hospital’s ED patients that have
critical values as reported from EMS as in the above
at (id at t 24) for patients as the Decedent.
34.
From 14:25 through 14:29 RN Pleming’s notations
were “Vitals Recorded in This Encounter” listed:
A) BP (!) 198/103 mmHg. Pleming or any other staff
made no comparison to EMS findings as listed in
11 that at EMS recording of the same value was

(Appx F) 28
B) 188/102 and was elevated that should have re­
quired further tests and investigation. Yet,
Pleming failed to account for A change.
C) RN Pleming failed to establish proper tempera­
ture which noted as oral but used a rectum base
standard of 37.3” C (99.1 °F.) The base was sup­
posed to be 37°
D) Since Decedent Blood Pressure increased and
she was noted as having a slight increase in tem­
perature versus normal temperature is around
98.6, and her Blood Sugar was never recorded by
Pleming as 404, is a failure to attention to detail
and failure to alert her line staff of further test­
ing is needed
35.
According Exhibit 3. Emergency Room (ED) Events,
approximately between 14:24 through 14:46 Valerie
Gorra started her examination but also failed to ad­
dress the Decedent’s vitals recorded by EMS in com­
parison to Pleming’s initial encounter and charting.
36.

At all times prior to Decedent’s not being properly
diagnosed and not given proper medications to being
withheld medicine for a known UTI, PA Gorra failed
to account for Decedent’s compromised system due to
diabetes and other indicators of critical values.
37.

!

(Appx F) 29
At all times prior to Decedent’s not being properly
diagnosed and not given proper medications to being
withheld medicine for a known UTI, PA Gorra at
14:49, gave a lab order for UA Microscopic Reflex
Culture, Urinalysis with culture screen, but failed to
order tests reflective of the oxygen content of NH3
and NH4 exchanges to TKN or reactions from Oxy­
gen that would have been indicators of the function­
ality of Oxygen in the blood for proper Lungs, Kid­
neys, Adrenal glands, Pancreas, Liver, and Urethra
function. PA Gorra also ordered X-ray of the Lum­
bar Spine AP and lateral indicates in part misdiag­
nosis
38.
At 15:48 on 9/23/15, X-ray results were final, but no
treatment addressed Decedent’s critical values that
were left intentionally out of PA Gorra’s, Pleming’s,
Powell’s, and Harre’s analysis and tests; despite hav­
ing medical understanding to explore more than the
results but what causes were contributing to Dece­
dent’s lower back pain
39.

1

At 15:52 through 16:25, PA Jeffery Harre interfaced
with lab in Sunquest concerning urine culture, final
results from urinalysis with culture screen, and UA
microscopic reflex culture. Also attending as assign­
ing/conspiring for not providing proper treatment
was DO Blake Illston. Both parties contributed to
Decedent’s UTI becoming deadly and oxidizing her
system that when medications for the misdiagnosis
of her lower back pain were inappropriately ordered,
administered at therapeutic dosages, the functionali

(Appx F) 30
ty of her Kidneys, Urethra, Adrenal glands, Pancre­
as had stopped functioning from the lack of proper
medicines.
40.
At all times in the course of Decedent’s expected
proper treatment, Defendant MD prescribing medi­
cations that lowered Decedent’s immune system are
liable for attributing to her death. The misdiagnosis
did inexcusable harm due to the administering and
concentrations of drugs in addition to not properly
filtering Decedent’s blood stream. The results are
proximate of the apparent findings supporting an
overdose related to misdiagnosis of the central nerv­
ous system.
41.
Despite results showing testing positive for Urine
Culture screening on 9/23/15, Exhibit 3. at 16;25,
Defendants still withheld this information
from Decedent and offered her no medications.
Defendants completely failed to give Decedent
nroner medications to help resist the bacteria
found from the culture and had no concerns of
contacting Decedent informing her that she
needed medications. PA Jeffery Harre, DO Blake
Illston, Pleming, and PA Gorra are liable due to they
had this information at some of time when they
came in contact with Decedent’s or her profile, they
either gave advice, or assisted in treatment, indi­
rectly or had direct contact with the lab results that
had positive UTI results.
42.
As a complete disregard for proper care and medical
neglect, Dr. Doreen R. Lius ordered the Urinalysis,

!

i

(Appx F) 31

i

I

urine culture, and UA Microscopic Reflex Culture
was provided with knowledge that the Decedent test
was positive and abnormal and that following lists
this critical data:
A) Urine culture Abnormal,
B) Appearance Cloudy, (which is indicative of infec­
tion)
E) Protein UA greater than 300 Abnormal
F) Glucose UA greater than 1000, Abnor­
mal
G) Blood UA, moderate, Abnormal
H) Bacteria, Urine, 2+ Abnormal
I) Epithelial Cell 2+ Squamous Abnormal
43.
Valerie Gorra, PA was privy to the preliminary lab
results at 15:15, 9/23/15 and didn’t act or should
have acted by a policy, practice, or procedure in the
interest of life and offering the best possible treat­
ment. Despite her oath required her to zealously act
from the results as a reasonable professional under
oath and duty to provide proper treatment from the
general results; even without knowing the specific
bacteria growing in the culture, Exhibit 4 Valerie
Gorra, PA should have acted to treat or kept the De­
cedent for further evaluations and tests.
44.
Decedent was still in ED according to Exhibit 5
Departing time was 17:59 under which University
Hospital medical staff that had encountered Daphne
through some direct or indirect involvement, Exhib­
it 6. JB-Juanita M. Boyd, Patient Care, BP-Brani
Nicole Pleming, RN, HT-Hannah Elizabeth Tim­
merman. RN, SF- Sarah Michelle Freer, RN, VG-

(Appx F) 32
Valerie Gorra, PA, JH- Jeffery Harre, PA, Blake 111ston, DO and Doreen R. Luis, MD allowed discharge
of Decedent though all factors show that discharge
was not appropriate and should have treated for a
Urinary Tract Infection, urine culture abnormality,
blood sugar abnormality, urine culture showing
cloudy urine, (which is indicative of infection or ab­
normality), Protein UA greater than 300 abnormali­
ty present in her urine, Glucose UA greater than
1000, Blood UA, moderate, Abnormality, Bacteria,
Urine, 2+ Abnormality Epithelial Cell 2+ Squamous
Abnormality, and information from the vitals includ­
ed both EMS and from RN Pleming vitals of in­
creased Blood pressure with a low grade fever. Yet,
the initial vitals transferred from EMS with the
known lab results was delayed treatment further
is one of the main factors contributing to the
moving force that caused Daphne’s death.
45.
Defendant RN, PA., and DO all misdiagnosed the
conditions after receiving vital tests and lab results
from a urine sample. The misdiagnosis is the result
of University Hospital failure to have policy and pro­
cedure, practice, for a Patient entering into ED as a
new Patient with critical values is noted in the above

at Him 24, 34, 42, and 44.
46.
Defendants’ group actions were deliberate arising
from devaluing and compromising life while consid­
ering University’s Hospital cost over patient Daph­
ne’s immediate need for appropriate medical care.
University Hospital failed to have experienced and
trained RN’s and PA’s handling the Decedent’s ini

i ■

(Appx F) 33

|

tial vitals reported from ESM and after conducting
University Hospital’s own vitals recorded in error,
(i.e., using a rectum baseline temperature versus an
oral temperature baseline), not ever giving consider­
ation or notation that Decedent’s Blood sugar level
was critical for a diabetic and never gave insulin,
never rechecked her Blood sugar level after the mi­
tial turnover from ESM had a level of 404 had no re­
gards for Decedent well being
47.
University Hospital and those named in para 44 are
liable for prescribing bogus medicines and not treat­
ing the actual source of Decedent’s medical condi­
tion. Instead of investigating further after the medi­
cines were ineffective as diazepam (valium) injection
10 mg intramuscular at 16:29 by RN Sarah Michelle
Freer, into the left Deltoid. (Benzodiazepines), Dece­
dent still had a vital sign of 10 for back pain which
should have prompted medical staff of other condi­
tions needing proper attention and investigation.
48.
University Hospital and those named in para 44 are
liable for prescribing adverse medicines for treat­
ment of skeletal muscle when the issues of dominance at critical value was her diabetes with a urinary infection impacting Decedent’s immune system
compromising her kidneys, UTI, NH3 and NH4 ex­
changes to TKN, no verifications were initiated to
ensure proper DKA was present especially since con­
travening vitals. That is, a Glucose was recorded ab­
normally greater thanlOOO, but a Negative mg/dL
was noted.
49.

(Appx F) 34
Staff demonstrated blatant incompetency by way of
receiving specific indicators given from EMS but
failed to act in the presence of critical values of blood
glucose level of 404 and the abnormal value of blood
present in the Hospital’s vitals. University Hospital
personnel involved in Daphne’s care failed to check
Hyperglycemic Hyperosmolar Syndrome, HHS
where the vitals indicated a negative value for Ke­
tones, Exhibit 3
50.
Certainly in the Medical profession as common prac­
tice, University Hospital ED Physician, Doreen R.
Luis,, responsible for PA Jeffery Harre, should have
had been concerned regarding critical values and
vitals recorded to not order or approve medication
that were steroid base increasing the infection and
proteinaceous deposits on her blood capillaries,
known as Glomerulosclerosis. See documented para
# 5 in the “Re-Amended Pathology Report as Exhib­
it 7 under which the process of the forgoing diffused
lesions disables the oxygen rich blood capillaries dis­
rupted Decedent’s kidney functions that went un­
treated, undocumented until 9/26/2015.
51.
The failure to act under the above conditions didn’t
allow filtration of the wrong medicines given in mis­
diagnosis further causing concentration of medicine
still present once they were metabolized and ac­
counted for without the Glomerulus bringing blood
and waste to the nephron.
52.
However she and Sarah Michelle Freer, RN adminis­
tered steroid based medicines

i

(Appx F) 35

i
:

University Hospital and those named in para 47 are
liable for prescribing wrong medicines and not treat­
ing the actual source of Decedent’s Pain vital of 10
for back pain. Instead of investigating from critical
values, and elevated vitals Defendants named in pa­
ra 44 administered Ketorolac (Toradol) injection 60
mg intramuscular at noted 16:29 by Sarah Michelle
Freer, RN into the left Deltoid. This particular in­
jection interfered with the fatty build-up disrupting
liver function for a diabetic under which already has
a compromised system once the injection is metabo­
lized. (tronmethamine)
53.
However she and Sarah Michelle Freer, RN adminis­
tered steroid based medicines
University Hospital and those named in para 44 are
liable for prescribing bogus medicines and not treat­
ing the actual source of Decedent’s Pain vital of 10
for back pain. Instead of investigating from critical
values, and elevated vitals Defendants named in pa­
ra 44 administered HYDROmorphone (Dilaudid) in­
jection .5 mg intramuscular at noted 17:20 by Han­
nah Elizabeth Timmerman, RN into the right Glute­
al. This particular injection interfered with function
for a diabetic under which already had a compro­
mised system once the injection is metabolized ef­
fecting Pulmonary Edema as identified as one of the
initial causes of death by suppression/ depressant
(Morphine)
54.
ED staff that provided deficient care to the decedent
on 9/23/2015 was not trained properly for emergency
Patient that had a compromised system from Diabe

(Appx F) 36
tes, never used a policy or procure, gave a powerful
drug, (Morphine) among other drugs (tronmethamine) and valium but failed to recheck Decedent vi­
tals. Standards are general 1 hr. from the time the
Nurse administer medication. Yet, University didn’t
care about Decedent in the manner that she was allowed to be placed under a deficient medical staff as
named in para 44
55.
Specific related University Hospital RN’s PA’s, and
DO blatantly failed to document their initial assess­
ments, any follow up vitals, re-assessments even af­
ter administering the inappropriate medications that
didn’t ease or diminish Decedent’s pain. No follow-up
vitals and pain scale documentation were recorded
or noted on the flow sheets.
56.
University Hospital RN’s PA’s, and DO failed to ac­
count or perform discharge assessments and docu­
mented previous information from initial vitals
logged atl4:92, Pg. 19. Also, Pgs. 19-23 never indi­
cate after morphine was administered, Decedent’s
BP, Temp., Temp, src, Pulse, Respiration, Sp oxygen
content to ensure that any changes would cause an
admission for further observations.
57.
At the time of discharge, University Hospital RN’s
PA’s, and DO failed ensure a reduction of pain before
allowing Decedent’s discharge. Noted in the record,
Decedent’s vital pain scale was 10 going in and 10
going out even after administering morphine and
other medicines should have been reasonable to the
prudent mind that further tests were needed due to

I

(Appx F) 37
non-response to the medicines given . Yet, Decedent
reported her pain scale, University Hospital staff
had lab report of UTI and the abnormalities noted
herein above at |24, gave medicines for pain without
addressing Blood Glucose, Blood pressure and kid­
neys function, discharged Decedent without giving
her any antibiotics to offer resistance to the infection
that was noted in the record.
58.
At all times University Hospital RN’s PA’s, and DO
failed to document on flow sheets Pgs. 19-23 that
Decedent had a UTI before she left. ED, Pgs. 12-13
confirmed discharging Decedent in a defenseless
state as a Diabetic and compromised system with a
damaged glomerulus and abnormal blood indication.
59.
At all times all liable parties which caused Daphne
L. Ricks death never documented any rechecks onto
the Hospital’s flow sheet from 14:25 to 17:39 con­
cerning Decedent. No new vitals recorded for 3hrs
therefore Defendants had no idea of Decedent’s con­
dition from the initial assessment, after administer­
ing wrong medications, discharging her in a defense­
less state, never warned or called to have her return
and to get the appropriate medicines, failed to filter
her blood, failed to admit her for other tests and
treated Decedent’s life as immaterial to cost expendi­
ture of business arrangements over saving a life that
reached out to a healthcare system for assistance.
60.
At all times University Hospital RN’s PA’s, and DO
failed to prevent or take reasonable measures to cau

(Appx F) 38
tion against error in Decedent’s care by not testing
further when their profession required and called for
warning Decedent on the date, 9/23/17 that she was
in grave danger from the EMS vitals to University
Hospital lab analysis. Yet, the Defendant failed to
perform from the reasonableness at moment to 4
days later in contacting Decedent to instructing her
of a High UTI.
60.

i

It is mind boggling that no excuse could ever be used
in not informing Decedent of her condition and to in­
tercede by notification even if they failed to com­
municate the lab results prior to Daphne’s dis­
charged from ED.
61.
As a result, University Hospital RN’s PA’s, and DO
denied Decedent and her family proper care to a de­
layed care of 4 days without medicines to fight
against a Urinary Tract Infection that the result
from the Pathology findings can be conclusively re­
lated to Kidneys Pancreas, liver, respiratory and
other internal organs malfunction due to not having
a proper functioning glomerulus that brought oxygen
rich blood and waste product to Decedent’s nephron.

!

62.

Clearly University Hospital staff involved in negli­
gence care of Decedent was deliberate indifference of
medical assistant when Valereie Gorra, (PA) and
Jeffery Harre, (PA) didn’t properly diagnose Daph­
ne’s condition, and a jury can review the Pathology,
EMS data, University Hospital original logs and not
the logs augmented to the acts of the PA’s, RN’s and
Doctor constitute deliberate indifference due to Dece-

i

(Appx F) 39

I
i

dent’s lack of insurance, classified African American
descent, most likely considered a financial liability
so proper treatment was denied even after Universi­
ty Hospital had medical data of Decedent’s grave
health condition
63.
Clearly University Hospital staff involved in negligence care of Decedent showed deliberate indifference of medical assisting when Valereie Gorra, (PA)
and Jeffery Harre, (PA) didn’t properly diagnose
Daphne’s condition ignored Decedent’s serious and
gravely medical condition that lead to her death is a
deliberate indifference to provide proper treatment
64
Clearly University Hospital staff involved in negli­
gence care of Decedent was deliberate indifference of
medical assistant when Valereie Gorra, (PA) and
Jeffery Harre, (PA) didn’t properly diagnose, screen,
test, or administer proper medicines, not document­
ing changes after administering morphine under
Daphne’s condition is deliberate indifference
65.
Toxicology Reports support levels of therapeutic
drugs administered by the staff RN’s in question and
under the approval of PA’s and ED doctor indicate
the amount of drugs active when the values would
have been less to none if a proper functioning
glomerulus would have been operating properly un­
der the substances given and prescribed. See at­
tached positive findings of Toxicology as Exhibit 9
66.
At all times University Hospital RN’s in question
and under the approval of PA’s and ED Doctor are

(Appx F) 40
liable for negligence in the manner they gave thera­
peutic medications to decedent while under their
care that impacted Decedent liver and spleen even
when the medicines given was not an antibiotic
within the first 4 days to reverse the effects of the
toxic infection from a UTI. The moving force and
causation is a component showing the proximate
cause of death in the initial, amended, and re­
amended pathology analysis as Exhibit 10.

i.

(

67.

At all times Defendants’ inaction and failing to act
from lab results of kidneys liver function are sub­
stantially related to the injury-causing conduct re­
sult leading to Decedent death. Pinev Grove Baptist
Church v. Goss. 255 Ga. App. 380, 565 S.E.2d 569
(2002).
68.

At all times University held a legal duty to act from
the vitals passed from EMS, and the only one time
vitals logged by Pleming assessed at 14:29, and the
lab results but willfully wanton and reckless disre­
garded to Decedents’ life that ultimately caused her
to have Hepatosplenomegaly, Mild Pulmonary Edema and Congestion, High level of Orphenadrine
along with therapeutic levels of Codeine, Morphine
and Hydrocodone that University Hospital did noth­
ing in its crucial initial misdiagnosis and left Dece­
dent to at some point die to an infection attacking
her internal organs, thus causing a shutdown there­
of. See Exhibit 10
69.
At all times University Hospital RN administered
wrong medication by injections into the Decedent

!

-

(Appx F) 41
when her critical values were not considered and in­
deed out of normal range. The foregoing reactions
from oxygen deficient Blood that would have been an
indicator of proper Lung functionality, Adrenal
glands function, Pancreas, Liver function, and Ure­
thra function, erroneously prescribed diazepam
which had no proper effect on Decedent’s condition.
70.
On 9/23/15 University Hospital PA Jeffery Harre re­
viewed by DO Blake Illston prescribed diclofenac Po­
tassium 50mg tablets 3 times daily and Orphenadrine 100 mg tablets 2 times daily. Exhibit 11
which was also noted in Exhibit 10 as a cause for
Decedent’s death
71.
CLAIMS FOR SPECIAL DAMAGES
Plaintiffs hereby realleges and incorporates by refer­
ence paragraphs 1-70 as to fully set forth herein
state with particularity the following entitlements
for compensation:
72.
As a direct and proximate result of the conscious in­
differences to the action of Defendants, amount to
willful and wanton misconduct of the Professional
Defendants held to a medical standard to act and
use all its power in healthcare, Decedent’s Daugh­
ters Chaslie Lewis and Petrice Ricks are entitled to
recover their special damages from Defendants in
excess of $50,000,000.00 including pre-judgment and
post-judgment interest for the loss of their Parent for
the inappropriate actions and inactions taken
73.
i

(Appx F) 42
Wherefore, Plaintiffs seek relief from the Defend­
ants in the amount of $50,000,000.00 for failing to
act or taking the wrongful acts in misdiagnosing the
Emergency condition leading to the findings in Ex­
hibit 11 all caused by Defendant not acting as pro­
fessionals prudently under grave conditions.
Plaintiffs and enjoined family are entitled to recov­
ery for economic value of the deceased and the in­
tangible value of Decedent loss of enjoyment of life
and loss under the Georgia Wrongful Death Act.
74.
CLAIMS FOR GENERAL DAMAGES
Plaintiffs hereby reallege and incorporate by reference paragraphs 1-73 as to fully set forth herein
state with particularity the following entitlements
for compensation:
75.
As a direct and proximate result of the conscious in­
differences to the action of Defendants, amount to
willful and wanton misconduct of the Defendants
Chaslie and Petrice suffered the loss and death of
their Parent under which constitute a suffering of
Pain to both mind and spirit transferred to physical
stress and is entitled to recover general damages
from the Defendants in the amount to be determined
by the enlightened conscience of a jury in an amount
to equal to the full value of suffering a death of irre­
placeable effect
76.

CLAIMS FOR PUNITIVE DAMGES
Plaintiffs hereby reallege and incorporate by refer­
ence paragraphs 1-75 as to fully set forth herein

i
{

(Appx F) 43

!

1

state with particularity the following entitlements
for compensation:
77.
Actions of Defendants’ herein display complete dis­
regard for the medical profession and Decedent’s life,
way of willful misconduct, malice, medical fraud,
wantonness, oppression, deficiency, failing to do all
within testing, medical admission, to administering
proper medical diagnosis and medications during
two separate visits to University Hospital attached
to an entire want of care under which raises the pre­
sumption of conscience of deliberate indifference for
treatment to Decedent on the basis of her ethnicity,
financial status, and not having insurance in the
manner that Defendants position of care was with­
held and Decedent was told to “follow- up with
Richmond County Health Department-Laney Walker
Clinic. Call in 1 day;” Exhibit 12 As needed if symp­
tom worsen. Defendant didn’t want to use their time,
tests, or medical care over Decedent’s conditions.
Plaintiffs are entitled to an award of punitive dam­
ages to penalize, punish and deter the Defendants
from only providing misdiagnosis to indigent patient
as Decedent was viewed in the manner of medical
care provided
78.
The Defendants’ actions and inactions herein show
that the Defendants acted, or failed to act, with the
specific intent to cause harm such that there should
be no limit as to the amount of punitive damages
awarded by the jury herein
79.

(Appx F) 44
As a direct and proximate result of Plaintiffs’ moth­
er’s death of the willful and wanton misconduct and
misdiagnosis of the Defendants, Plaintiffs are enti­
tled to an award of punitive damages against all of
the Defendants herein jointly and severally
80.

WHEREFORE, Plaintiffs prays and demands
the following:
(a) That Summons and process issues and service be
made upon Defendants in this action with their
Registered Agent or a person designated to accept
service of Process foe the CEO Jim Davis, / Presi­
dent thereby is considered to have served all par­
ties under his control and subordinated to his
command
(b) That judgment be rendered against Defendants
as a private Corporation of medical services, Uni­
versity Hospital, University Hospital Board of
Commissioners, CEO Jim Davis, / President, Dr.
Farr, (Chief Medical Officer), Reynee Gallup,
(CNO), and Edward Burr, (CNA)(Registered
Agent) or any combination of any three or more of
said Defendants, jointly and severally, and in fa­
vor of Plaintiffs and enjoined family members in
an amount in excess of $80,000,000.00 to be prov­
en at trial;
(c) That Judgment be rendered against Defendants a
private Corporation of medical services, Universi­
ty Hospital, University Hospital Board of Com­
missioners, CEO Jim Davis, / President, Dr. Farr,
(Chief Medical Officer), Reynee Gallup, (CNO),
and Edward Burr, (CMA)(Registered Agent) or
any combination of any three or more of said De

(Appx F) 45
fendants, jointly and severally, and in favor of
Plaintiffs and enjoined family members in an
amount in

!

(d) favor of Plaintiffs and enjoined family members
for general damages an amount to be awarded by
the province of the jury under proper instruc­
tions;
(e) That judgment be rendered against Defendants
as a private Corporation of medical services, University Hospital, University Hospital Board of
Commissioners, CEO Jim Davis, / President, Dr.
Farr, (Chief Medical Officer), Reynee Gallup,
(CNO), and Edward Burr, (CNA)(Registered
Agent) or any combination of any three or more of
said Defendants, jointly and severally, and in favor of Plaintiffs and enjoined family members for
punitive damages;
(f) For a jury trial on all issues;
(g) For all related costs of this action in entirety;
(h)For such other and further relief as this Court or
a different Court deems just and
Proper.
(i) For the Trier of Fact and presiding judge to sub­
mit a filed financial disclosure statement under
the ethics disclosure act
81.
COUNT -II
COUNT-II GROSS NEGLIGENCE
DEPENDENTS’ CONDUCT AS MANAGEMENT
AND SUPERVISORY CAPACITY ARE LIABLE
UNDER RESPONDEAT SUPERIORITY

I .

(Appx F) 46
Plaintiff reaffirms here in the complaint individual
paragraphs and all allegations that was documented
in the introduction through Count I above, para­
graphs 1- 80 as to fully set forth herein below as
known the references herein at Count II and states:
82.

University Hospital Board of Commissioners, CEO
Jim Davis, / President, Dr. Farr, (Chief Medical Of­
ficer), Reynee Gallup, (CNO), and Edward Burr,
(CNA)(Registered Agent) are liable for their subor­
dinates conduct both actions and inactions as [policy
makers and goals setters for their respective De­
partments to ensure that University RN’s as named
and PA’s named, and MD’s all provide optimal the
standard of care for the conditions Decedent’s critical
values presented
83.

At all times the Parties named are liable for actions
and inactions of Brandi Nicole Pleming, (ED PRN),
Dorren R. Luis, (MD), Valereie Gorra, (PA),
Bonnie B. Powell, Jeffery Harre, (PA), Blake Illston,
Tamera Jones, Sarah Freer, Taylor Tiberi, and
Hanna Elizabeth Timmerman, (RN) as responsible
for deprived medical treatment and services and the
issuance of medications that the named RN failed to
monitor, failed to ensure the appropriate vital signs
of Pain had subsided before discharging, and failed
to notify Decedent of her labs result of a UTI infec­
tion until 3 days later from her initial ED deficient
services.
84.
University Hospital Board of Commissioners, CEO
Jim Davis, / President, Dr. Farr, (Chief Medical Of

:

!
I

I

(Appx F) 47
ficer), Reynee Gallup, (CNO), and Edward Burr,
(CNARRegistered Agent) are liable for their subor­
dinates conduct both actions and inactions as [policy
makers and goals setters for their respective De­
partments failed to have trained personnel and staff
that was involved in ED care for the Decedent. Man­
agement listed herein above is responsible for the
administration of the hospital, the perpetuation of
medical compliance, standards, federal regulations,
polices, practices, procedures are adhered to under
which, No standards was used in Decedent’s case or
logged from EMS turn-over of Decedent’s vitals with
regards to the above ^[24.
85.
At all times the Parties named are liable for actions
and inactions of Brandi Nicole Pleming, (ED PRN),
Dorren R. Luis, (MD), Valereie Gorra, (PA), Bonnie
B. Powell, Jeffery Harre, (PA), Blake Illston, Tamera
Jones, Sarah Freer, Taylor Tiberi, and Hanna
Elizabeth Timmerman, (RN) is liable under supervi­
sory causation in that the numbers of deaths noted
is attributed to inappropriate medical services but
logged with Corner from pathology as accidental
when in actuality was the fault of University Hospi­
tal RN’s as in Decedent case and PA’s and MD not
providing proper medical services and treatment
86.
At all times the Parties named are liable for actions
and inactions of Brandi Nicole Pleming, (ED PRN),
Dorren R. Luis, (MD), Valereie Gorra, (PA), Bonnie
B. Powell, Jeffery Harre, (PA), Blake Illston, Tamera
Jones, Sarah Freer, Taylor Tiberi, and Hanna
Elizabeth Timmerman, (RN) is liable under as Re

(Appx F) 48
spondeat Superiority for Decedent’s death in the
manner that the actions the above indirect and indi­
rect parties involved failed to provide Decedent with
high Blood Glucose level over 400.
87.

Plaintiffs the responsible management staff giving
oversight to Brandi Nicole Pleming, (ED PRN),
Dorren R. Luis, (MD), Valereie Gorra, (PA), Bonnie
B. Powell, Jeffery Harre, (PA), Blake Illston, Tamera
Jones, Sarah Freer, Taylor Tiberi, and Hanna
Elizabeth Timmerman, (RN) should have known
University Hospital was diffident inn policy practice
and procedure in the ED department for Patients as
Decedent with High Blood sugar level and the man­
ner of services that are required. However, the rec­
ord is clear that no mentioning or charting ever dis­
closed EMS findings or follow-up at the initial incep­
tion phrase of the emergency services.
88.

University Hospital Board of Commissioners, CEO
Jim Davis, / President, Dr. Farr, (Chief Medical Of­
ficer), Reynee Gallup, (CNO), and Edward Burr,
(CNA)(Registered Agent) are liable for their subor­
dinates conduct both actions and inactions as estab­
lished under the above paragraphs 61-70 as to set
forth fully and applied herein as liable parties de­
spite not having any direct involvement into the
misdiagnosis or the inappropriate treatment and
services.
89.

COUNT-111 GROSS NEGLIGENCE

(Appx F) 49
Plaintiff reaffirms here in the complaint individual
paragraphs and all allegations that was documented
in the introduction through Count and I-Count II
above, paragraphs 1- 88 as to fully set forth herein
below as known the references herein at and states:
90.
On 9/26/15, Daphne Ricks returned back to ED for
the same medical condition that had been treated for
prior on 9/23/15 at 19:05
91.
At all times prior, Decedent was never told or made
known she had a UTI with any specific bacterial cul­
tures despite University Hospital staff listed in par­
agraph 44 above had full knowledge of the infection
that was allow to continue without any treatment
prior to the 9/26/15 appearance in ED again.
92.
Although specific flow sheet doesn’t show ED Nurse
that charted Decedent’s vitals, it is reasonable to be­
lieved that Michael Steven Rich was the imitator up
to 19:06 and transferred Decedent other healthcare
to Elise Catherine Patrizio for triage at 19:28 until
19:33 under which again, no record exists showing
the Nurses ever recorded Decedent’s Blood Glucose
levels after knowing patient had diabetes Exhibit
13. Pgs. 30-33
93.
Vitals charted at 19:30 and given to Monica Edenfield, PA at 19:33 until discharge shows a complete
disregard for patient and reckless consideration for
life when she was given a BP of 91/64 mmHg reading
should have been information below normal for a di

(Appx F) 50
abetic was at Ricks of hypoemia and possibly pulmo­
nary disease or issues.
94.
Vitals charted and given to Monica Edenfield indi­
cated the inability of the Decedent’s lungs to ex­
change oxygen and carbon dioxide and the ability of
proper
Kidneys function to eliminate waste and to bring ox­
ygen rich blood. This was never noted as critical in­
dicators prompting further evaluation from a three
interval of having high BP to now low BP was noted.
Still no Blood sugar noted or charted.
95.
After not treating Decedent properly with medica­
tions and an incomplete diagnosis, Monica Edenfield,
PA, with reviews from Rudy Mathew, MD notes on
Exhibit 13. Pg. 32 admitted to the record that
“Urinalysis was done, but Patient was not
treated for a UTI which cultures came back +
for > 100.000 colonies of E. Coli.”
96.
After not treating Decedent properly with medica­
tions and an incomplete diagnosis, Monica Edenfield,
PA, with reviews from Rudy Mathew, MD notes on
Exhibit 13. Pg. 32 admitted to the record that
“Urinalysis was done, but Patient was not
treated for a UTI which cultures came back +
for > 100.000 colonies of E. Coli.” PA then com­
pounded the infection bv prescribing medica­
tions as steroids such as Prednisone. The other
medications prescribed all attacked Decedent’s
liver and other organs as kidneys under which

(Appx F) 51
was Actaminophen-Codeine. Cvclobenzaprine
(Flexerill and Phenazopvrine, (Pvridumh Exhibit 13. Pg. 36
97.
Defendants as an ED staff from 9/23/15 and again on
9/26/15 knew or should have known not addressing
blood sugar or the functionality of Decedent s kidneys, liver, pancreas and toxicity levels will result in
harm to a diabetic patient when critical values were
clear cause for concern as a first line or prevention.
The foregoing conduct was “wanton” and “reckless”
misconduct for a professional operating in a RN; ED
capacity and is directly liable for Decedent’s death
98.
WHEREFORE, Plaintiffs reaffirms here in the
complaint individual paragraphs for damages at 61
through 98 and all allegations that entitled compen­
sation for a medical wrongful death from the above
noted.
Respectfully Submitted,
i

/s/,
Chaslie Lawrence Lewis
2740 Highpoint Road
Snellville, Georgia 30078
(678) 344-4518
/ s/,
Charlie Sr. Lawrence
2740 Highpoint Road
Snellville, Georgia 30078
(678) 344-4518

/s/,
Janie Ruth W. Lawrence
2740 Highpoint Road
Snellville, Georgia 30078
(678) 344-4518

(Appx F) 52
/si,

/s/,

Petrice Ricks
Charlette Lawrence Jones
2740 Highpoint Road
2740 Highpoint Road
Snellville, Georgia 30078 Snellville, Georgia 30078
(678) 344-4518
(678) 344-4518
/s/,

r

/s/,

Gwen Lawrence Harrison Cynthia Lawrence Tolbert
2740 Highpoint Road
2740 Highpoint Road
Snellville, Georgia 30078
(678) 344-4518
/s/,

Snellville, Georgia 30078
(678) 344-4518
/s/,

Cheryl A. Lawrence Hughes
Carolyn Lawrence
2740 Highpoint Road
2740 Highpoint Road
Snellville, Georgia 30078 Snellville, Georgia 30078
(678) 344-4518
(678) 344-4518
Is/,

Samuel Me. Lawrence
2740 Highpoint Road
Snellville, Georgia 30078
(678) 344-4518
/s/,

Fredrick Lawrence
2740 Highpoint Road
Snellville, Georgia 30078
(678) 344-4518
/s/,

Gregory M. Lawrence
2740 Highpoint Road
Snellville, Georgia 30078
(678) 344-4518

/s/,

Reginald Lawrence
2740 Highpoint Road
Snellville, Georgia 30078
(678) 344-4518
/s/,

Christopher Lawrence
2740 Highpoint Road
Snellville, Georgia 30078
(678) 344-4518
/s/,

Charlie Jr. Lawrence
2740 Highpoint Road
Snellville, Georgia 30078
(678) 344-4518

s
!

